                The Federal, State, and Local Governments
                   Office Is Taking Action to Identify Its
                Customers, but Improvements Are Needed

                                      May 2004

                       Reference Number: 2004-10-104




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       May 25, 2004


       MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                      ENTITIES DIVISION


       FROM:                        Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

       SUBJECT:                     Final Audit Report - The Federal, State, and Local Governments
                                    Office Is Taking Action to Identify Its Customers, but
                                    Improvements Are Needed (Audit # 200310031)


       This report presents the results of our review assessing the Tax Exempt and
       Government Entities Division’s efforts to accurately identify its Federal, state, and local
       government customers.
       In summary, Federal, State, and Local Governments (FSLG) office management has
       begun the process to identify Federal, state, and local government customers.
       Government Entities (GE) function management recognized that the FSLG office
       encountered difficulty in identifying its customers that has limited progress to date.
       However, the FSLG office needs to take a more structured approach to ensure actions
       for identifying customers are successful. For example, FSLG office management did
       not identify a structured and effective approach to address limitations for matching data
       between the United States (U.S.) Census Bureau’s 2002 Governments Integrated
       Directory (GID) and Internal Revenue Service’s (IRS) computer systems. Also, action
       taken by the FSLG office to correct employment codes used to categorize employers as
       Federal, state, or local governments on IRS computer systems was not always
       successful. In addition, efforts to develop a database to capture information about
       FSLG office customers were not included in management’s action plan. Finally,
       corrective actions taken in response to a prior report1 to develop operational plans were
       not effective. Specifically, these plans did not always include the actions planned,
       individuals assigned, responsible management official(s), completion dates, expected
       results, and methods to monitor and report performance.


       1
        To Provide Quality Service, the Government Entities Organization First Needs to Identify Its Customers
       (Reference Number 2002-10-102, dated July 2002).
                                            2

We repeated our prior recommendation to develop action plans that include all of the
information stated above. In addition, we recommended the Director, GE, ensure that a
survey is mailed to all government entities appearing on the U.S. Census database that
are not on IRS computer systems, confirm their names and addresses, and request the
entities’ Employer Identification Numbers.
Management’s Response: IRS management agreed with the recommendations
contained in the report. The Director, FSLG office, is preparing a detailed action plan
that will include the application of employment codes to categorize employers as
Federal, state, or local governments on IRS computer systems. A project leader has
been selected to complete the steps in the action plan. In addition, the Director, FSLG
office, will continue to refine customer identification through matching data between the
U.S. Census Bureau’s GID and the IRS’ computer systems and will do another survey
to resolve identification errors with mismatched entities. Management’s complete
response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
                  The Federal, State, and Local Governments Office Is Taking
                 Action to Identify Its Customers, but Improvements Are Needed




                                                Table of Contents


Background ............................................................................................... Page 1
The Federal, State, and Local Governments Office Should
Take a More Structured Approach to Identify Its Customers ..................... Page 2
         Recommendations 1 and 2: .......................................................... Page 10

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 11
Appendix II – Major Contributors to This Report........................................ Page 13
Appendix III – Report Distribution List ....................................................... Page 14
Appendix IV – Outcome Measures ............................................................ Page 15
Appendix V – Management’s Response to the Draft Report ..................... Page 16
              The Federal, State, and Local Governments Office Is Taking
             Action to Identify Its Customers, but Improvements Are Needed

                                  The Government Entities (GE) function of the Tax Exempt
Background
                                  and Government Entities (TE/GE) Division is divided into
                                  three distinct offices that are modeled after its three different
                                  sets of customers—Indian Tribal Governments (ITG); Tax
                                  Exempt Bonds; and Federal, State, and Local Governments
                                  (FSLG). The FSLG office is the largest of the three. Its
                                  mission is to provide Federal Government agencies, state
                                  governments, local governments, and quasi-governmental
                                  entities top-quality service by helping them understand and
                                  comply with the tax laws. FSLG office customers are
                                  generally not subject to Federal income tax; however, these
                                  customers are generally required to file information returns
                                  and file and pay employment taxes. The FSLG office’s
                                  interactions with its customer base affects compliance levels
                                  of the government employers as well as their 23 million
                                  employees, which is the largest single block of employees in
                                  the United States (U.S.).
                                  The Internal Revenue Service (IRS) Business Master File
                                  (BMF)1 includes 78,627 Federal Government agencies, state
                                  governments, and local municipalities.2 However, this
                                  figure does not include potentially thousands of subunits
                                  that provide employment tax and information return
                                  reporting information for consolidation to a particular entity.
                                  Because these subunits may affect the compliance of
                                  another government entity, the FSLG office has decided to
                                  identify these customers as well. However, FSLG office
                                  management’s attempts to identify new customers have
                                  been hampered because the FSLG office has not yet been
                                  fully staffed. In addition, the database used by the IRS to
                                  identify government customers was not complete or
                                  accurate when the GE function was established.
                                  In a prior audit,3 we reported that 12,878 Federal, state, and
                                  local entities were identified as delinquent during Calendar
                                  Years 1999, 2000, or 2001. Additional analysis of these


                                  1
                                    The BMF is a computer database that consists of Federal tax-related
                                  transactions and accounts for businesses. These include employment
                                  taxes, income taxes on businesses, and excise taxes.
                                  2
                                    As of September 20, 2003.
                                  3
                                    Additional Management Actions Should Be Taken to Ensure That
                                  Government Entities’ Customers Meet Their Federal Tax Obligations
                                  (Reference Number 2002-10-123, dated September 2002).
                                                                                                  Page 1
               The Federal, State, and Local Governments Office Is Taking
              Action to Identify Its Customers, but Improvements Are Needed

                                   entities showed that 2,697 entities had not submitted the
                                   required tax payments (resulting in balances due of
                                   $104 million), and 1,604 entities had not submitted the
                                   required tax returns to account for almost $7.4 billion in tax
                                   deposit credits. TE/GE Division management believed a
                                   significant portion of the delinquent dollar amount
                                   represented error conditions or misapplied payments that,
                                   when resolved, would result in a zero balance.
                                   In February 2003, the FSLG office published a Research
                                   Plan as part of a major initiative to better identify, quantify,
                                   and monitor its customers. The major goals of the Plan are
                                   to:
                                       •   Identify all government entity customers.
                                       •   Develop major market segments and their significant
                                           submarket segments.
                                       •   Develop customer and industry profiles.
                                       •   Identify trends, issues, and problems of customers.
                                       •   Determine market segment compliance risk levels.
                                       •   Identify workload for various compliance
                                           treatments.
                                   This review was performed from July 2003 through
                                   February 2004 at the TE/GE Division Headquarters Office
                                   in Washington, D.C. We also contacted personnel located
                                   in FSLG offices in Cheektowaga, New York, and
                                   Austin, Texas. The audit was conducted in accordance with
                                   Government Auditing Standards. Detailed information on
                                   our audit objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   FSLG office management has begun the process to identify
The Federal, State, and Local
                                   Federal, state, and local government customers. For
Governments Office Should
                                   example, GE function management developed a
Take a More Structured
                                   Research Plan that addresses the identification of its
Approach to Identify Its
                                   customers; customer characteristics (profiling); assessment
Customers
                                   of risk; allocation of resources; and trends, issues, and
                                   problem identification. In addition, GE function


                                                                                             Page 2
 The Federal, State, and Local Governments Office Is Taking
Action to Identify Its Customers, but Improvements Are Needed

                     management has added data to the Return Inventory
                     Classification System (RICS)4 from other IRS computer
                     systems and the U.S. Census Bureau to obtain more accurate
                     information about its customer base.
                     GE management recognized that it encountered difficulty in
                     identifying its customers that has limited progress to date.
                     In June 2003, GE management selected a new Director of
                     the FSLG office, who stated one of his main priorities was
                     the identification of FSLG office customers. To facilitate
                     this effort, action plans for identifying customers were
                     updated to provide additional detail. In addition, the
                     Director initiated an effort to develop a database to capture
                     information on FSLG office customers. However, the
                     FSLG office needs to take a more structured approach to
                     ensure actions for identifying customers are successful.
                     Differences between data contained in the U.S. Census
                     database and IRS records have delayed identification
                     efforts
                     The FSLG office has obtained a download of the U.S.
                     Census Bureau’s 2002 Governments Integrated Directory
                     (GID)5 to use in identifying incomplete or inaccurate
                     information on the IRS BMF. This is one of the FLSG
                     office’s initiatives to update existing customer information
                     and identify new customers. The GID includes
                     87,900 active governments,6 while the BMF includes
                     78,627 government entities.7
                     However, FSLG office management has had only limited
                     success with this initiative. FSLG office management had
                     previously received 1997 GID information but did not use it
                     for identifying customers because they felt it was outdated.
                     FSLG officials were aware of potential problems with
                     matching the two databases when they first obtained the
                     U.S. Census data. They recognized that the BMF contained

                     4
                       The RICS contains return and filer information related to the filing and
                     processing of Employee Plans, Exempt Organizations, and GE forms.
                     5
                       The FSLG office stated that it received a modified version of the GID
                     that contains more information than what is available to the public. This
                     includes more data about each government entity and defunct
                     governments.
                     6
                       As of June 30, 2002.
                     7
                       As of September 20, 2003.
                                                                                       Page 3
 The Federal, State, and Local Governments Office Is Taking
Action to Identify Its Customers, but Improvements Are Needed

                     fewer government entities than the U.S. Census database.
                     In addition, the two databases cannot be systemically
                     matched because the GID does not contain a unique
                     identifier, such as an Employer Identification Number
                     (EIN), to use for matching purposes. Further, both
                     databases use different format and naming conventions for
                     entities’ names and addresses, which makes systemic
                     matching of the entities more difficult.
                     Although FSLG office management consulted with the
                     TE/GE Division’s Research office in an attempt to identify
                     an effective process to match the databases, they did not
                     identify a structured and effective approach to address this
                     limitation. Instead, database matching efforts have
                     generally consisted of ad hoc trial and error techniques. For
                     example, the FSLG office was able to match only 57 percent
                     of the databases for county governmental units within
                     specific zip code ranges. Further, 40 percent of those
                     entities had to be matched manually.
                     FSLG officials stated that a timeline for completing the
                     matching of all entities on the GID and BMF databases was
                     not established because FSLG office management had not
                     identified an effective methodology of matching these two
                     databases. In addition, the action plan for this initiative did
                     not provide the specific actions or detailed methodologies to
                     be used to match the GID and BMF databases and to correct
                     erroneous information on IRS computer systems. Further,
                     the action plan items did not include information on how the
                     work related to the unmatched organizations for the
                     remaining government segments would be divided among
                     FSLG field offices, how the field offices would conduct the
                     match, what the scheduled completion dates would be, or
                     how the results of the matching would be monitored and
                     reported to senior management.
                     The FSLG office initially planned to use field offices or the
                     Office of Outreach, Planning, and Review to resolve all
                     unmatched organizations, for each government segment.
                     We discussed with FSLG office management the feasibility
                     of mailing surveys to customers to facilitate the matching of
                     the GID and BMF databases. This would reduce the
                     amount of work required by field offices to resolve
                     unmatched organizations, which should result in more

                                                                             Page 4
 The Federal, State, and Local Governments Office Is Taking
Action to Identify Its Customers, but Improvements Are Needed

                     effective use of their limited resources. FSLG office
                     management agreed that this methodology might make more
                     effective use of its resources.
                     Subsequent to these discussions, FSLG office management
                     informed us they sent out a pilot sample of 500 survey
                     letters to government organizations that were on the U.S.
                     Census database but not on the BMF. The survey letter
                     contained five boxes that recipients could check to explain
                     why they were included on the GID but not on the BMF.
                     FSLG office management stated that they received
                     2968 responses to the surveys and, based on the response
                     level, will mail surveys to the remaining unmatched
                     organizations. This will be done after the FLSG office
                     refines the number of unmatched entities using an improved
                     matching technique.
                     The FSLG office took action to correct government
                     employment codes on IRS computer systems but was not
                     always successful
                     Another initiative undertaken by the FSLG office during
                     2003 was to identify and correct inaccurate employment
                     codes9 used to categorize employers as Federal, state, or
                     local governments on IRS computer systems. FSLG office
                     personnel informed us they reviewed a RICS report
                     containing the names, addresses, employment codes, and
                     business operating codes of over 80,000 entities, looking for
                     obvious coding errors based upon the name and
                     employment code of the entity. In addition, FSLG office
                     personnel queried the RICS database using key
                     words (e.g., city, town, and police) and specific filing
                     requirements to identify miscoded entities. FSLG office
                     personnel then attempted to assess the accuracy of the
                     entities’ employment codes based upon these reviews
                     (looking at the organizations’ names and researching filing
                     requirements).
                     FSLG office management provided us with documentation
                     indicating they identified 1,617 errors based upon their

                     8
                      As of March 31, 2004.
                     9
                      Employment codes identify employers that are other than normal
                     business employers (e.g., Federal, and state or local government
                     agencies).
                                                                                   Page 5
 The Federal, State, and Local Governments Office Is Taking
Action to Identify Its Customers, but Improvements Are Needed

                     review of the approximately 80,000 government entities
                     from the RICS data. They stated that 1,095 of the errors
                     included entities mistakenly coded as governmental,
                     previously unidentified government entities, and
                     government entities that had the incorrect type of
                     employment code (e.g., Federal, state or local), but they
                     could not provide us with documentation showing how
                     these errors were corrected. However, the FSLG office did
                     provide us with documentation for the remaining 522 cases,
                     which showed:
                          •   Nongovernment entities were mistakenly coded as
                              government employers in 445 cases.
                          •   Government entities were not coded as government
                              employers in 15 cases.
                          •   Government entities were mistakenly coded as the
                              wrong type of government employer in 26 cases.
                          •   Employment codes for 36 entities were changed, but
                              the case files did not contain the entities’ original
                              employment codes. As a result, we could not
                              determine the original type of employer based on our
                              review of the documentation.
                     We randomly selected 50 of these 522 cases and researched
                     IRS computer systems and/or the Internet to determine if the
                     revised employment codes were accurate. Based on our
                     research, we determined that the revised employment codes
                     were not accurate in 10 (20 percent) of 49 cases.10
                     In 5 of these 10 cases, the FSLG office appropriately
                     determined that the entity was not a government but did not
                     correctly revise the entity’s employment code to reflect its
                     nonprofit status. These five cases included:
                          •   Four churches that should have been reclassified as
                              nonprofit organizations exempt from unemployment
                              tax.




                     10
                       There was not sufficient information available on one case to make a
                     determination regarding the accuracy of the revised employment code.
                                                                                    Page 6
 The Federal, State, and Local Governments Office Is Taking
Action to Identify Its Customers, but Improvements Are Needed

                          •   One exempt organization that should have been
                              reclassified as a nonprofit organization exempt from
                              unemployment tax.
                     The remaining five cases consisted of instances in which the
                     FSLG office deleted the employment code because it
                     mistakenly determined that the entity was not a government
                     employer. These cases included:
                          •   Two instances in which the words “company” or
                              “corporation” appeared in the names of actual
                              government entities.
                          •   A pension plan for a failed employer administered
                              under the auspices of the Federal Government.11
                          •   An entity managed by a trust board created under an
                              intergovernmental agreement among the Federal,
                              state, and local governments.
                          •   A state branch of government.
                     The FSLG official responsible for initially identifying
                     inaccurately coded entities stated that FSLG office
                     personnel in Austin, Texas, would be responsible for
                     verifying that the entities were not governmental and
                     changing the employment codes. However, an FSLG
                     official in Austin told us they changed the employment code
                     based upon the initial review. Our review of the case files
                     showed that personnel in Austin performed only limited
                     research on each entity and generally did not verify the
                     proper employment code.
                     The FSLG office prepared an action plan but did not have a
                     documented methodology for performing research to
                     confirm that organizations were not governmental or for
                     changing the employment codes of entities that were
                     non-profit organizations. In addition, the action plan did not
                     include guidance on what research to conduct to verify that
                     the entities were not governmental or provide instructions
                     for ensuring that miscoded entities were accurately
                     corrected. As a result, inaccurate information about the

                     11
                        After we brought this situation to FSLG office management’s
                     attention, they informed us an additional 2,839 entities were similar to
                     this case and may also be incorrectly coded.
                                                                                       Page 7
 The Federal, State, and Local Governments Office Is Taking
Action to Identify Its Customers, but Improvements Are Needed

                     TE/GE Division customer base was input to the IRS
                     computer system. An FSLG official informed us that a lack
                     of sophisticated data matching software and a shortage of
                     clerical support hampered their progress.
                     Efforts to develop a database to capture information
                     about FSLG office customers were not included in the
                     action plan
                     The FSLG office is also developing a supplemental database
                     to meet its needs for capturing additional information about
                     Federal, state, and local government customers. This
                     database was adapted from the TE/GE Division’s Office of
                     ITG Work Assignment Database and will capture FSLG
                     office outreach efforts, work assignment data, and customer
                     identification information when fully implemented. FSLG
                     office management stated the database includes information
                     related to FSLG office customers identified on the BMF and
                     is structured so that it captures not only the primary
                     government entities but also the related government
                     subunits for each primary entity. In addition, data from the
                     ongoing GID/BMF matching will be added to the database,
                     when the matching is completed. Further, FSLG office
                     management stated the database would include market
                     segment results when they are available.
                     FSLG office management has not yet developed a formal
                     time period for completing the database, documentation
                     about the system requirements, or information on how the
                     database will be kept current once it is online. FSLG office
                     management informed us they did not include the
                     development of this database in their Research Plan or
                     associated documents because they only began working on
                     the database in September 2003. However, this information
                     was also not included in the January 2004 update to the
                     action plan.




                                                                           Page 8
 The Federal, State, and Local Governments Office Is Taking
Action to Identify Its Customers, but Improvements Are Needed

                     Corrective actions to our July 2002 report12 were not
                     effective
                     In response to our prior report, the TE/GE Division agreed
                     to develop GE function operational plans that included the
                     actions planned, individuals assigned, responsible
                     management official(s), completion dates, expected results,
                     and methods to monitor and report performance. The IRS
                     reported that these corrective actions were completed
                     as of May 16, 2002. The FSLG office developed its
                     Research Plan in February 2003 and related action plans in
                     May 2003, both of which occurred after the date that the
                     IRS reported it completed the prior report’s corrective
                     actions. However, as noted above, we determined that
                     action plans related to identifying Federal, state, and local
                     government customers did not always include all of the
                     necessary information. Based on the reasons cited in this
                     report, we believe it is important to repeat the
                     recommendations from our prior report to develop adequate
                     action plans.
                     The identification of FSLG office customers is a critical part
                     of the FSLG office’s efforts to provide quality customer
                     service as well as ensure compliance with Federal tax laws.
                     To address noncompliance issues, while maximizing its
                     limited resources, the FSLG office needs to identify its
                     at-risk customers most in need of educational assistance to
                     effectively communicate tax law changes, educate them,
                     and, if necessary, undertake compliance checks and
                     examinations. In addition, more accurate identification of
                     its customers on IRS computer systems will help the IRS to
                     identify filing noncompliance and effectively apply tax
                     payments to the proper taxpayer accounts. Further, the
                     identification of its customers is a critical step in the
                     completion of a series of initiatives discussed in the FSLG
                     Research Plan. By ensuring that as many government
                     entities as possible are identified, the FSLG office will be
                     better able to achieve its stated goals.




                     12
                       To Provide Quality Service, the Government Entities Organization
                     First Needs to Identify Its Customers (Reference Number 2002-10-102,
                     dated July 2002).
                                                                                  Page 9
 The Federal, State, and Local Governments Office Is Taking
Action to Identify Its Customers, but Improvements Are Needed

                     Recommendations

                     To provide a more structured approach for initiatives to
                     identify FSLG office customers, the Director, GE, should:
                     1. Ensure action plans for each initiative include the:
                        •   Specific actions, methodologies, and procedures for
                            completing the initiative.
                        •   Individuals assigned to complete each action.
                        •   Management official(s) providing oversight.
                        •   Scheduled completion dates, including milestone
                            dates for each key activity.
                        •   Expected results.
                        •   Methods to monitor performance and prepare
                            subsequent updates to action plans if the actions or
                            methodologies are no longer viable.
                     Management’s Response: The Director, FSLG office, is
                     preparing a detailed action plan that will include the
                     application of employment codes to categorize employers as
                     Federal, state, or local governments on IRS computer
                     systems. A project leader has been selected whose primary
                     assignment will be the identification of FSLG taxpayers and
                     the completion of the steps in the plan.
                     2. Ensure that a survey is mailed to each government entity
                        included on the U.S. Census database that was not on
                        the BMF, to confirm the name and address of the entity
                        and request its EIN (if applicable). In addition, the
                        survey should request the entity to identify other
                        government units that its employment tax and
                        information return data are consolidated with for
                        information reporting purposes.
                     Management’s Response: The Director, FSLG office, will
                     continue to refine customer identification through matching
                     data between the U.S. Census Bureau’s GID and the IRS’
                     computer systems and will conduct another survey to
                     resolve identification errors with mismatched entities.



                                                                            Page 10
                The Federal, State, and Local Governments Office Is Taking
               Action to Identify Its Customers, but Improvements Are Needed

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the Tax Exempt and Government Entities
(TE/GE) Division’s efforts to accurately identify Federal, state, and local government customers.
To accomplish our objective, we:
I. Determined all planned efforts or those initiated since the July 2002 Treasury Inspector
   General for Tax Administration (TIGTA) report1 to identify Federal, state, and local
   government customers.
    A. Interviewed Government Entities function and Federal, State, and Local Governments
       (FSLG) office management to obtain information on all planned identification efforts or
       those initiated since July 2002.
    B. Obtained any documentation (e.g., planning documents, action plans, status reports)
       related to efforts to identify FSLG office customers.
    C. Determined if identification efforts are on schedule.
II. Determined whether TE/GE Division management took adequate corrective action in
    response to recommendations made to improve the process used to identify customers
    (related to the FSLG office) contained in the July 2002 TIGTA report.
    A. Verified whether FSLG office planning documents and action plans obtained in Step I
       identify the management official(s) responsible for providing oversight.
    B. Reviewed FSLG office plans obtained in Step I to determine whether they included
       specific actions needed to identify customers, individuals assigned to the project,
       completion dates, expected results, and methods to monitor performance.
III. Evaluated the progress of FSLG office efforts to accurately identify its customers.
    A. Assessed whether FSLG office efforts have resulted in the identification of additional
       customers.
        1. Determined if additional customers have been identified.
        2. Determined how the Internal Revenue Service (IRS) updates its computer system to
           include newly identified customers.




1
 To Provide Quality Service, the Government Entities Organization First Needs to Identify Its Customers
(Reference Number 2002-10-102, dated July 2002).
                                                                                                          Page 11
                 The Federal, State, and Local Governments Office Is Taking
                Action to Identify Its Customers, but Improvements Are Needed

    B. Determined if the methodologies used to identify customers address inaccuracies in IRS
       systems.
        1. Determined whether the IRS is using more timely data from the United States Census
           Bureau to identify government customers.
        2. Determined how the IRS is correcting inaccurate employment codes on IRS computer
           systems.
        3. Selected a random sample of 50 cases from the universe of 522 cases in which the
           IRS determined that the employment codes were incorrect, corrected the coding, and
           had documentation supporting the changes. We limited our random sample to
           50 cases to more efficiently use Office of Audit resources.
        4. Performed research using the Internet and/or the Integrated Data Retrieval System2 to
           determine if the IRS correctly determined that the entities were not Federal, state, or
           local government entities. We also determined whether the IRS input the correct
           revisions to the employment, Business Operating Division, and Business Operating
           Division client codes.




2
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.



                                                                                                             Page 12
              The Federal, State, and Local Governments Office Is Taking
             Action to Identify Its Customers, but Improvements Are Needed

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy Nakamura, Director
Jeffrey M. Jones, Audit Manager
Thomas Seidell, Senior Auditor
Michael McGovern, Auditor
Marjorie Stephenson, Auditor




                                                                                      Page 13
              The Federal, State, and Local Governments Office Is Taking
             Action to Identify Its Customers, but Improvements Are Needed

                                                                               Appendix III


                                 Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Communications and Liaison, Tax Exempt and Government Entities Division
SE:T:CL
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Office of Federal, State, and Local Governments, Tax Exempt and Government Entities
Division SE:T:GE:FSL
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Assessment RAS:O
Office of Management Controls OS:CFO:AR:M




                                                                                     Page 14
                 The Federal, State, and Local Governments Office Is Taking
                Action to Identify Its Customers, but Improvements Are Needed

                                                                                                   Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Reliability of Information – Actual; 10 tax accounts affected (see page 2).
Methodology Used to Measure the Reported Benefit:
We selected a random sample of 50 cases from a universe of 522 tax accounts in which the
Federal, State, and Local Governments office determined that the entities’ employment codes
were incorrect, took action to correct the employment codes, and documented its actions. For the
tax accounts selected, we researched Internal Revenue Service computer systems and/or the
Internet to determine if the revised employment codes were accurate. Based on our research, we
determined that the revised employment codes were not accurate for 10 of the 491 tax accounts
sampled.




1
  There was not sufficient information available on one case to make a determination regarding the accuracy of the
revised employment code.
                                                                                                           Page 15
 The Federal, State, and Local Governments Office Is Taking
Action to Identify Its Customers, but Improvements Are Needed

                                                                Appendix V


       Management’s Response to the Draft Report




                                                                    Page 16
 The Federal, State, and Local Governments Office Is Taking
Action to Identify Its Customers, but Improvements Are Needed




                                                                Page 17
 The Federal, State, and Local Governments Office Is Taking
Action to Identify Its Customers, but Improvements Are Needed




                                                                Page 18
 The Federal, State, and Local Governments Office Is Taking
Action to Identify Its Customers, but Improvements Are Needed




                                                                Page 19
